                         Federal Emergency Management Agency
                                   Office of Inspector General – Audits Division
                                           Western District Audit Branch
                                            1111 Broadway, Suite 1200
                                         Oakland, California 94607-4052

                                                 January 16, 2003


MEMORANDUM FOR:                    Jeff Griffin
                                   Regional Director, Region IX




FROM:                              Robert J. Lastrico
                                   Western District Audit Manager

SUBJECT:                           City of Fremont, California
                                   Public Assistance Identification Number 001-26000
                                   FEMA Disaster Number 1203-DR-CA
                                   Audit Report Number W-09-03

The Office of Inspector General audited public assistance funds awarded to the City of Fremont,
California (City). The objective of the audit was to determine whether the City expended and
accounted for FEMA funds according to Federal regulations and FEMA guidelines.

The City received a public assistance award of $1.2 million from the California Office of
Emergency Services (OES), a FEMA grantee, for damages resulting from severe winter storms
and flooding that occurred from February 2, 1998, to April 30, 1998. The award provided
75 percent FEMA funding for eight large projects and four small projects.1 The audit covered
the period of February 1998 to May 2001 and included review of all eight large projects with a
FEMA award of $1.1 million.

We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included tests of
the City’s accounting records, a judgmental sample of expenditures, and other auditing
procedures we considered necessary under the circumstances.

We determined that the City used and accounted for FEMA funds according to the Federal
regulations and FEMA guidelines. On December 13, 2002, we informed OES officials of our
audit results. Since this report contains no recommendations, a response is not required. Should

1
  According to Federal regulations in effect at the time of the disaster, a large project was defined as a project
costing $47,100 or more and a small project was defined as one costing less than $47,100.
you have any questions concerning this report, please contact me at (510) 627-7011. Key
contributors to this assignment were Ravinder Anand and Michael Long.




                                          2
